            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
   COMMONWEALTH OF PUERTO RICO
     DEPARTMENT OF THE FAMILY
     FOR THE FISCAL YEAR ENDED
              JUNE 30, 2002

     APRIL 2004   A-77-04-00013




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY
MEMORANDUM
Date:   April 15, 2004                                                      Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From: Assistant Inspector General
         for Audit

Subject: Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico,
        Department of the Family, for the Fiscal Year Ended June 30, 2002 (A-77-04-00013)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the Commonwealth of Puerto Rico, Department of the Family (DoF), for the
        Fiscal Year ended June 30, 2002. Our objective was to report internal control
        weaknesses, noncompliance issues, and unallowable costs identified in the single audit
        to SSA for resolution action.

        Ernst & Young LLP performed the audit. Results of the desk review conducted by the
        Department of Health and Human Services (HHS) have not been received. We will
        notify you when the results are received if HHS determines the audit did not meet
        Federal requirements. In reporting the results of the single audit, we relied entirely on
        the internal control and compliance work performed by Ernst & Young LLP and the
        reviews performed by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Puerto Rico Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. DoF is the
        Puerto Rico DDS’ parent agency.
Page 2 – Candace Skurnik

The single audit reported that:

1. DoF could not supply all of the required documentation for its contracts. The
   corrective action plan indicated that a process to update contract files with required
   documentation was initiated (Attachment A, pages 1 and 2).

2. The Time Report of Personnel Services (SSA-4514) was not submitted timely. The
   corrective action plan indicated that the DDS and DoF will coordinate their efforts to
   ensure the reports are prepared and submitted timely (Attachment A, page 3).

We recommend SSA:

1. Ensure the DDS implemented procedures to maintain required documentation for
   contracts.

2. Verify that adjustments were made to ensure the DDS complies with established due
   dates for Federal reports.

The single audit also disclosed the following findings that may impact DDS operations,
although they were not specifically identified to SSA. Some of these findings were
reported for several DoF programs indicating pervasive problems within DoF. If the
finding was reported in more than one DoF program, we identify the number of times
the finding was reported in parenthesis. I am bringing these matters to your attention as
they represent potentially serious service delivery and financial control problems for the
Agency (Attachment B, pages 1 through 23).

•   DoF has significant deficiencies (10) in its internal control structure, accounting and
    financial management systems, budgetary controls and financial reporting practices
    (Attachment B, pages 1 through 5).

•   DoF did not have an effective filing system (Attachment B, pages 6 and 7).

•   Federal reports (9) were not submitted timely (Attachment B, page 8).

•   Supporting documentation for employee files and accounting records (24) was not
    retained for expenditures charged to Federal funds (Attachment B, pages 9 and10).

•   Payment vouchers (4) were incomplete (Attachment B, pages 11 and 12).

•   Property and equipment management procedures (7) were not adequate
    (Attachment B, pages 13 and 14).

•   Financial Status Reports (6) were not reconciled with the General Ledger
    (Attachment B, pages 15 and 16).
Page 3 – Candace Skurnik

•   Federal funds (2) were disbursed prior to receiving a signed contract or after their
    effective date (Attachment B, pages 17 and 18).

•   Evidence to support the drawdown of Federal funds (7) could not be located
    (Attachment B, pages 19 and 20).

•   DoF paid for obligations made after the allowed time period (Attachment B,
    page 21).

•   DoF made a Federal disbursement (2) for an unallowed activity (Attachment B,
    pages 22 and 23).

Please send copies of the final Audit Clearance Document to Shannon Agee and Rona
Rustigian. If you have questions contact Shannon Agee at (816) 936-5590.




                                          S
                                          Steven L. Schaeffer

Attachments
Attachment A
  Page 1 of 3
Attachment A
  Page 2 of 3
Attachment A
  Page 3 of 3
Attachment B
 Page 1 of 23
Attachment B
 Page 2 of 23
Attachment B
 Page 3 of 23
Attachment B
 Page 4 of 23
Attachment B
 Page 5 of 23
Attachment B
 Page 6 of 23
Attachment B
 Page 7 of 23
Attachment B
 Page 8 of 23
Attachment B
 Page 9 of 23
Attachment B
Page 10 of 23
Attachment B
Page 11 of 23
Attachment B
Page 12 of 23
Attachment B
Page 13 of 23
Attachment B
Page 14 of 23
Attachment B
Page 15 of 23
Attachment B
Page 16 of 23
Attachment B
Page 17 of 23
Attachment B
Page 18 of 23
Attachment B
Page 19 of 23
Attachment B
Page 20 of 23
Attachment B
Page 21 of 23
Attachment B
Page 22 of 23
Attachment B
Page 23 of 23
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                  Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
